    July 21, 2006




Acquisition
Purchase Card Program Controls at Selected
Army Locations
(D-2006-099)




              Department of Defense
             Office of Inspector General
 Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AAA                   Army Audit Agency
A/OPC                 Agency/Organization Program Coordinator
BPA                   Blanket Purchase Agreement
GAO                   Government Accountability Office
IG                    Inspector General
SOP                   Standing Operating Procedure
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                             July 2 1,2006
MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on Purchase Card Program Controls at Selected Army Locations
         (Report No. D-2006-099)

      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Acting Director of the Army Contracting Agency comments were partially
responsive. We request additional comments on Recommendation 1.b. by August 21,
2006.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudACM@dodia.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the I Signed I
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET)
        We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Deborah Carros at (703) 604-921 7 (DSN 664-9217). See Appendix C for the
report distribution. The team members are listed inside the back cover.




                                     %J
                                     I
                                        *&b      l,.  *
                               By direction of the Deputy Inspector General for Auditing:



                                           Richard B. Jolliffe
                                     Assistant Inspector General
                                 Acquisition and Contract Management
               Department of Defense Office of Inspector General
Report No. D-2006-099                                                        July 21, 2006
   (Project No. D2005-D000CK-0250.000)

                        Purchase Card Program Controls
                          at Selected Army Locations

                                 Executive Summary

Who Should Read This Report and Why? Purchase card program managers,
certifying officials, approving officials, alternate approving officials, and cardholders
responsible for implementing and overseeing purchase card processes at Fort Carson,
Fort McPherson, and Fort Stewart should read this report because it identifies problems
with internal controls.

Background. This audit is in response to a request from the DoD Purchase Card
Program Management Office. The DoD Purchase Card Program Management Office
requested we perform a comprehensive review of the Army purchase card program and
specifically the control environment supporting the purchase card program at Fort
Stewart, Georgia.

From October 1, 2004, through April 30, 2005, Fort Carson, Fort McPherson, and Fort
Stewart cardholders made 73,652 transactions, valued at $97.8 million. We reviewed
9,865 purchase transactions, valued at $22.4 million, on 80 accounts.

Results. Controls over the purchase card programs at Fort Carson, Fort McPherson, and
Fort Stewart were inadequate, and program oversight was weak. Purchase card program
management officials did not have adequate policies and procedures in place for retaining
cardholder documentation. Specifically, 596 purchase transactions were misuses of the
purchase card, and 27 of the 107 cardholder files requested for review could not be
located. For the 9,865 purchase transactions reviewed, 7,714 had adequate supporting
documentation, 1,433 had incomplete supporting documentation, and 718 had no
supporting documentation.

In addition, purchase card program management officials at all three locations had not
implemented adequate cardholder training, performed required annual approving official
account inspections, or effectively managed the span of control over purchase card
accounts. Specifically, 20 of the 107 selected cardholders did not receive the required
initial or refresher training; 757 of the 853 approving official accounts were not inspected
in FY 2005, as required; 23 approving officials were responsible for more than the
standard cardholder to approving official ratio; and the agency/organization program
coordinators at Fort McPherson were responsible for more than the standard for span of
control for purchase card accounts.

Fort Stewart purchase card program management officials initiated efforts to improve
internal controls during the audit in response to recommendations made by the Army
Audit Agency in September 2005. These efforts included developing a robust program
for cardholder training, establishing a plan to achieve 100 percent inspections of
approving official accounts, and implementing a plan to reduce the approving official
span of control to a manageable level. These efforts, if fully implemented, should
strengthen program controls and significantly improve program oversight.

Unless purchase card program management officials strengthen internal controls and
program oversight, the Army cannot ensure the continuous program improvement and
risk mitigation necessary to prevent fraud, waste, or mismanagement. U.S. Army
Contracting Agency officials must establish controls for training all cardholders and
approving officials, reviewing all approving official accounts annually, and reducing the
approving official span of control to a manageable level. U.S. Army Contracting Agency
officials need to implement guidance for retention of transaction documentation. (See the
Finding section of the report for the detailed recommendations.)

Management Comments. The Acting Director of the Army Contracting Agency and the
Deputy Assistant Secretary of the Army for Financial Operations commented on the
report recommendations and concurred with the recommendations. However, we do not
consider the Acting Director of the Army Contracting Agency comments to be
completely responsive. Specifically, the Acting Director of the Army Contracting
Agency concurred with the recommendation to ensure the agency/organization program
coordinator inspect all purchase card approving official accounts annually, and provided
an alternate plan for reviewing the approving official accounts annually. However, the
Army Government Purchase Card Standing Operating Procedure requires the Level 4
agency/organization program coordinator to have full responsibility of auditing
approving official accounts annually. In addition, the current draft revision of the Army
Standing Operating Procedure states that the agency/organization program coordinator’s
responsibilities cannot be delegated. As a result, we request the Acting Director of the
Army Contracting Agency to provide additional comments to the final report addressing
the recommendation by August 21, 2006. See the Finding section of the report for a
discussion on management comments and the Management Comments section of the
report for a complete text of comments.




                                           ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              2

Finding
     Purchase Card Program Controls                                    3

Appendixes
     A. Scope and Methodology                                          14
     B. Prior Coverage                                                 15
     C. Report Distribution                                            17

Management Comments
     Assistant Secretary of the Army for Acquisition, Logistics, and
           Technology                                                  19
     Assistant Secretary of the Army for Financial Management and
           Comptroller                                                 22
Background
          We conducted this audit in response to a request from the DoD Purchase Card
          Program Management Office. The DoD Purchase Card Program Management
          Office requested we perform a comprehensive review of the Army purchase card
          program and specifically the control environment supporting the purchase card
          program at Fort Stewart, Georgia. The DoD Purchase Card Program
          Management Office requested the audit because the Army Audit Agency (AAA)
          had identified significant misuses of the Government purchase card within the
          Aviation Division at Fort Stewart due to weak or nonexistent internal controls.1
          The DoD Purchase Card Program Management Office agreed that we could
          expand the scope to include Fort Carson and Fort McPherson, which we visited as
          part of the “Audit of Controls Over the Army, Navy, and Air Force Purchase Card
          Programs” (Project No. D2005-D000CK-0202.000).

          Government Purchase Card Programs. Federal purchase card programs,
          which have been in existence Government-wide since 1989, were established to
          streamline acquisition processes by providing a low-cost, efficient vehicle for
          obtaining goods and services directly from vendors. The General Services
          Administration reported that the Government saves approximately $1.4 billion
          annually in administrative costs by using purchase cards. In addition, the
          program earned the Government rebates of $50.9 million in FY 2005. The
          purchase card is authorized for use in making and paying for purchases of
          supplies, services, or construction in accordance with the Federal Acquisition
          Regulation. Federal Acquisition Regulation Subpart 13.2 states that the purchase
          card will be the preferred method to purchase and to pay for micro-purchases. A
          “micro-purchase” is defined as an acquisition of supplies or services using
          simplified acquisition procedures, the aggregate amount of which does not exceed
          the micro-purchase threshold of $2,500, except for construction where the
          threshold is $2,000.

          With the establishment of the General Services Administration SmartPay Program
          in 1998, contracts were awarded to five service providers: Bank of America, Bank
          One, Citibank, Mellon Bank, and U.S. Bank. Federal Government departments
          and agencies were to choose the service provider with capabilities meeting
          agency requirements. The Army purchase card program operates under a
          Government-wide General Services Administration contract with U.S. Bank. The
          Army’s purchase card activity for FY 2005 totaled 4.5 million transactions valued
          at $3.5 billion.

          DoD Program Participants and Responsibilities. The Under Secretary of
          Defense for Acquisition, Technology, and Logistics and the DoD Purchase Card
          Program Management Office have overall responsibility for the DoD purchase
          card program. The U.S. Army Contracting Agency, under the Assistant Secretary
          of the Army (Acquisition, Logistics, and Technology), has overall responsibility
          for the Army purchase card program. Fort Carson falls under the U.S. Army
          Contracting Agency, Northern Region; Fort McPherson and Fort Stewart fall

1
    AAA Report No. A-2005-0199-ALA, “The Army’s Purchase Card Program, Aviation Division, Fort
    Stewart/Hunter Army Airfield, Georgia,” June 13, 2005.

                                                  1
    under the U.S. Army Contracting Agency, Southern Region. Authority is further
    delegated to the contracting offices to ensure that adequate resources are
    dedicated to the purchase card program within each installation to allow effective
    completion of purchase card administration. However, the responsibility for the
    management and day-to-day operations of the purchase card program lies with the
    agency/organization program coordinators (A/OPCs). Furthermore, A/OPCs,
    approving officials, and cardholders at the installation level are collectively
    responsible for providing reasonable assurance that purchase card transactions are
    appropriate and meet a valid Government need.


Objectives
    The audit objective was to determine whether controls over the Army purchase
    card program are effective. Specifically, we reviewed existing operational and
    internal controls over the purchase card programs at Fort Carson, Colorado; Fort
    McPherson, Georgia; and Fort Stewart, Georgia. See Appendix A for a
    discussion of the scope and methodology. See Appendix B for prior coverage
    related to the objectives.




                                        2
           Purchase Card Program Controls
           Controls over the purchase card programs at Fort Carson, Fort McPherson,
           and Fort Stewart were inadequate, and program oversight was weak.
           Specifically,

                   •   596 purchase transactions were misuses of the purchase card;

                   •   27 of the 107 cardholder files requested for review could not be
                       located;

                   •   20 of the 107 selected cardholders did not receive the required
                       initial or refresher training;

                   •   757 of the 853 approving official accounts were not inspected
                       in FY 2005, as required;

                   •   the A/OPCs at Fort McPherson were responsible for more than
                       the standard for span of control for purchase card accounts; and

                   •   23 approving officials were responsible for more than the
                       standard cardholder to approving official ratio.

           These control weaknesses occurred because purchase card managers did
           not effectively implement Army purchase card program guidance and did
           not adequately enforce existing controls throughout the purchase card
           program. Unless purchase card program management officials strengthen
           internal controls and program oversight, the Army cannot ensure the
           continuous program improvement and risk mitigation necessary to prevent
           fraud, waste, or mismanagement.


Army Purchase Card Guidance
    Department of Army, “Government Purchase Card Standing Operating
    Procedure,” July 31, 2002. The Army Standing Operating Procedure (SOP)
    defines the requirements for establishing, maintaining, and operating the purchase
    card program. The Army SOP requires A/OPCs at the installation level to
    manage the day-to-day operations of the purchase card program. These
    responsibilities include developing and implementing local procedures, providing
    initial and biannual refresher training to all cardholders and approving officials,
    conducting annual reviews of all approving official accounts, and maintaining an
    appropriate span of control.

    Fort Carson Standing Operating Procedure for Government Purchase Card
    Program, February 2003. The Fort Carson SOP supplements the Army SOP
    and establishes and prescribes procedures for use of the purchase card for all
    cardholders and approving officials managed by Fort Carson’s Directorate of
    Contracting. The Fort Carson SOP states that the Directorate of Contracting is
    responsible for ensuring that adequate internal controls are in place and working
                                         3
    to provide reasonable assurance that resources are protected from fraud, waste,
    and misuse. The Directorate of Contracting is further responsible for training and
    instructing participating personnel and reviewing cardholder records. Approving
    officials are responsible for ensuring that each purchase card transaction meets
    the legal requirements for authorized purchases, is approved prior to purchase,
    and contains adequate documentation.

    Fort McPherson Simplified Customer Service Guide to Government
    Purchase Card Procedures, Revised October 2003. The Fort McPherson
    Guide supplements the Army SOP and establishes policies and procedures for use
    of the purchase card. The Fort McPherson Guide requires A/OPCs to conduct
    training and annual inspections of all approving official accounts under their
    control. Approving officials are responsible for ensuring cardholders comply
    with purchasing procedures and reviewing and certifying the monthly billing
    statement. Cardholders are required to maintain a purchasing file to include a
    written certification of funds for each purchase, receipts, cardholder statements of
    any questionable items, and a purchase log.

    Fort Stewart Standing Operating Procedure for Use of the Government
    Purchase Card, February 22, 2005. The Fort Stewart SOP supplements the
    Army SOP and establishes policies and procedures for the use and management
    of the purchase cards for Fort Stewart, Hunter Army Airfield, and tenant activities
    within the Fort Stewart area of support. The Fort Stewart SOP states that the
    A/OPC is responsible for training cardholders and approving officials, conducting
    an annual review of each assigned approving official, and maintaining an
    appropriate span of control between approving officials and cardholders. The
    approving official is responsible for reviewing all transactions for each assigned
    cardholder and ensuring cardholders fulfill their responsibilities. The cardholder
    is responsible for using the card to purchase or pay for official supplies and
    services in support of the agency’s mission, screening for mandatory sources,
    obtaining all required prepurchase approvals, and maintaining receipts and other
    supporting documentation.


Purchase Card Misuse
    From October 1, 2004, through April 30, 2005, Fort Carson, Fort McPherson, and
    Fort Stewart cardholders made 73,652 transactions, valued at $97.8 million.
    Specifically,

           •   Fort Carson cardholders made 23,210 transactions, valued at
               $21.1 million. We reviewed 1,259 purchase transactions, valued at
               $0.7 million, on 21 accounts.

           •   Fort McPherson cardholders made 24,650 transactions, valued at
               $38.8 million. We reviewed 3,776 purchase transactions, valued at
               $2.2 million, on 43 accounts.




                                         4
                   •    Fort Stewart cardholders made 25,792 transactions, valued at
                        $37.9 million. We reviewed 4,830 purchase transactions, valued at
                        $19.5 million, on 16 accounts.

           Purchase card managers did not effectively implement Army purchase card
           program guidance. We identified 596 misuses of the Government purchase card
           at Fort Carson, Fort McPherson, and Fort Stewart. Misuses include split
           purchases, use of nonmandatory sources of supply, and unauthorized purchases.

           Split Purchases. The Army SOP prohibits splitting requirements among multiple
           credit card purchases of same or similar items with the intent to stay under the
           dollar threshold of the cardholder’s single purchase limit. Eleven cardholders
           made 80 split transactions, valued at $134,539.

           Two Fort Carson cardholders made 10 split transactions, valued at $11,102, to
           stay below the individual cardholder’s single purchase limit. For example,
           one cardholder, whose single purchase limit was $2,500, made six consecutive
           purchase transactions for vehicle supplies to the same vendor on the same day for
           a total of $5,275.38.

           Five Fort McPherson cardholders made 28 split transactions, valued at $50,866,
           to stay below the individual cardholder’s single purchase limit. For example,
           one cardholder, whose single purchase limit was $25,000, made 16 purchases
           totaling $31,740.22 to the same vendor within 5 months for furniture for a single
           directorate.

           Four Fort Stewart cardholders made 12 split transactions, valued at $21,232, to
           stay below the individual cardholder’s single purchase limit. For example,
           one cardholder, whose single purchase limit was $2,500, purchased a tractor
           mower for $2,184.99 and minutes later made a separate purchase for mower
           accessories in the amount of $764.98, totaling $2,949.97. In addition, one Fort
           Stewart cardholder made 30 split transactions, valued at $51,339, to stay below
           the $2,000 micro-purchase threshold for construction.

           Use of Nonmandatory Sources of Supply. The U.S. Army Contracting Agency
           awarded 19 mandatory Army Blanket Purchase Agreements (BPAs) for office
           products on September 1, 2004. An Office of the Assistant Secretary of the Army
           for Acquisition, Logistics, and Technology memorandum, dated September 13,
           2004, states that, with limited exceptions, all Army purchases for office products
           must be made against the mandatory BPAs and all orders must be placed through
           the DoD Electronic Mall.2 The terms and conditions of the Army BPAs require
           vendors to offer competitive pricing as well as a $50 minimum order when
           purchasing office products. An exception to the mandatory use of the BPAs
           occurs when an office product appears to be priced above fair market value. The
           cardholder may then purchase the item from a vendor other than a BPA vendor.
           The terms and conditions of the Army BPAs further require shipments be made
           within 24 hours and delivered in good condition within 2 working days of

2
    DoD Electronic Mall is an official U.S. Government information technology interface to facilitate the
    procurement of goods and services by authorized personnel. These goods and services are to be procured
    for official Government related purposes only.

                                                     5
shipping. Another exception to the mandatory use of the BPAs occurs when a
need is so urgent that an office product is required the same day. The cardholder
may then purchase the item through another source. When an urgent purchase is
made, the cardholder file should appropriately document the reason for buying the
item from a non-BPA vendor.

For the 9,865 purchase transactions reviewed, 428 were purchases for office
products from non-BPA vendors and without the necessary justification.
Specifically, Fort Carson cardholders made 38 purchases, Fort McPherson
cardholders made 289 purchases, and Fort Stewart cardholders made
101 purchases for office products from non-BPA vendors and without the
necessary justification. Fort McPherson and Fort Stewart cardholders stated they
were unaware of the requirement to use Army BPAs for office products and that
DoD Electronic Mall was not user-friendly. Fort Carson and Fort McPherson
cardholders stated that it was often not practical to wait for a need for a
$50 minimum of office products when they could purchase the same item from a
local vendor at a lower cost. In addition, Fort McPherson cardholders did not
favor using mandatory BPAs, stating that items were rarely received within the
required time period.

Unauthorized Purchases. The Army SOP requires cardholders to obtain
prepurchase approval and documentation for requirements that appear to be
outside of normal needs of the requesting organization to support what may
appear to be questionable purchases. This documentation must address the need
for the item that is being acquired. Cardholders are responsible for ensuring that
purchases requiring preapproval are properly documented, and necessary
approvals are obtained prior to making the purchase. Furthermore, the Army SOP
prohibits cardholders from purchasing items for personal convenience or not for
official Government use with the purchase card. However, an exception occurs
when an otherwise “personal” purchase is deemed proper by the respective
agency official as mission-essential and a necessary expense of operating a
facility. These mission-essential items require documented prepurchase approval
and must be secured in the office at the end of the day for use during the work and
duty day.

For the 9,865 purchase transactions reviewed, 40 transactions made at Fort
Carson and Fort McPherson required preapproval (for example, food, seasonal
decorations, trophies, awards, plaques, and mementos); however, cardholder files
did not contain the required documentation or adequate justification for what
appeared to be questionable purchases. For example, one cardholder purchased
crystal and silver bowls, clocks, and paperweights in the amount of $1,348.40 as
gifts for foreign dignitaries without preapproval. Another cardholder purchased
hats and t-shirts in the amount of $2,492 without justification or preapproval.
Cardholders at Fort McPherson and Fort Stewart made an additional 48 purchases
for personal items, and cardholder files did not have justification for purchasing
these items or evidence of prepurchase approval. For example, cardholders
purchased disposable tableware, napkins, storage bags, aluminum foil, coffee
creamer, facial tissues, air fresheners, and personal calendars without justification
or preapproval. Cardholders stated the kitchen supplies were purchased for the
community breakroom for use by all employees. In addition, Fort McPherson and
Fort Stewart program officials stated that the items were not specifically listed in

                                      6
    the Army SOP as prohibited; therefore, they believed the purchases were
    allowable.

    The Army SOP contains a representative but not all-inclusive list of prohibited
    personal items. It is not necessary for the Army to cover every possible improper
    expense in the Army SOP. Improper expenses violate the law. Cardholders at
    Fort McPherson and Fort Stewart inappropriately used Government funds to
    purchase kitchen supplies for employee breakrooms. These purchases are
    potential Antideficiency Act violations, and the Army should conduct an
    investigation under the Financial Management Regulation provisions.


Retention of Cardholder Documentation
    Purchase card program management officials did not have adequate policies and
    procedures in place for retaining cardholder documentation.

    Inadequate Cardholder Documentation. Cardholders at the three Army
    locations did not retain adequate documentation in their files to support purchase
    card transactions in accordance with Army guidance. Specifically, for the
    9,865 purchase transactions reviewed, 7,714 had adequate supporting
    documentation, 1,433 had incomplete supporting documentation, and 718 had no
    supporting documentation. The Army SOP states that the cardholder is
    responsible for maintaining receipts and other supporting documentation.
    Installation-level purchase card guidance requires that the cardholder receive a
    written purchase request from an authorized activity and individual prior to
    making purchases. Furthermore, cardholders who do not have adequate
    documentation, such as purchase requests, invoices, and receipts, must maintain
    on file an explanation that includes a description of the item, the purchase date,
    the vendor’s name, and justification for no supporting documentation.

    Missing Cardholder Files. The Army SOP states that certified billing statements
    and supporting documents will be retained for 6 years and 3 months after final
    payment in accordance with the DoD Financial Management Regulation.
    However, 27 of the 107 cardholder files requested for review could not be
    located. Purchase card officials explained that they could not locate the missing
    cardholder files because cardholders had retired or deployed. When units are
    deployed, cardholders place the documentation in storage or leave it with the rear
    detachment; the documentation may be constantly moved from building to
    building and files can easily be misplaced.

    Fort McPherson and Fort Stewart policies and procedures do not address retention
    of cardholder documentation for cardholders who transfer, deploy, retire, or leave
    Government service.

    The Fort Carson SOP states that when cardholders depart or are on leave,
    temporary duty, etc., cardholders must leave documentation with the approving
    official for review of the purchases. The Fort Carson SOP further states that if the
    cardholder and the approving official are absent, the approving official must
    ensure that an alternate approving official is in place to certify the approving

                                         7
    account statement. However, Fort Carson purchase card personnel did not follow
    the procedures. If cardholders do not strictly adhere to policies about retaining
    cardholder documentation, the A/OPCs cannot perform required reviews.


Purchase Card Program Controls and Oversight
    Controls over the purchase card programs at Fort Carson, Fort McPherson, and
    Fort Stewart were inadequate, and program oversight was weak. Specifically,
    purchase card program management officials had not implemented adequate
    cardholder training, performed required annual approving official account
    inspections, or effectively managed the span of control over purchase card
    accounts.

    Cardholder Training. The Army SOP states that the A/OPC is responsible for
    providing initial and biannual refresher training to all cardholders and approving
    officials. Individuals are required to attend and complete training on the purchase
    card program prior to being delegated authority. Refresher training should cover
    the changes that affect the purchase card program, as well as special requests or
    needs of the group being trained. However, 20 of the 107 selected cardholders
    did not receive the required initial or refresher training. Specifically,
    10 cardholders at Fort Carson, 3 cardholders at Fort McPherson, and
    7 cardholders at Fort Stewart did not receive the required initial or refresher
    training.

    Approving Official Account Inspections. The Army SOP requires the A/OPC
    to inspect 100 percent of approving official accounts on an annual basis
    throughout the fiscal year, document deficiencies, and make the review available
    for external review. At a minimum, these inspections must address compliance
    with formal purchase card purchase and payment procedures, validation of
    spending limits, span of control, and property accountability. In addition,
    A/OPCs are required to review an adequate number of randomly selected
    transactions from each approving official account to verify that cardholders are
    following correct procedures and processes. However, A/OPCs did not perform
    the mandatory inspection of 757 of the 853 approving official accounts in
    FY 2005. Specifically, 196 approving official accounts at Fort Carson,
    244 approving official accounts at Fort McPherson, and 317 approving official
    accounts at Fort Stewart were not inspected in FY 2005. A/OPCs at Fort Carson
    and Fort McPherson stated they were in the process of establishing a plan to
    achieve 100 percent inspections of approving official accounts by the end of the
    fiscal year.

    Span of Control. The Army SOP establishes a standard span of control per
    A/OPC of 300 purchase card accounts, including cardholder and approving
    official accounts. The Army SOP further indicates that the span of control must
    not exceed the Army standard by more than 10 percent, or 330 accounts per
    A/OPC. The A/OPC span of control at Fort Carson and Fort Stewart were within
    acceptable limits. However, the primary and alternate A/OPCs at Fort McPherson
    were responsible for more than the standard for span of control for purchase card
    accounts. Specifically, Fort McPherson had 962 accounts (649 cardholder

                                         8
    accounts and 313 approving official accounts) under the control of a primary and
    an alternate A/OPC.

    In addition, the Army SOP establishes a standard span of control of not more than
    seven cardholders per approving official, and requires that any approving official
    exceeding this standard obtain a waiver to policy. Twenty-three approving
    officials were responsible for more than the standard cardholder to approving
    official ratio. Specifically, 9 approving officials at Fort Carson, 11 approving
    officials at Fort McPherson, and 3 approving officials at Fort Stewart exceeded
    the Army standard cardholder to approving official ratio. The majority of these
    approving officials maintained multiple approving official accounts to stay within
    the standard span of control. For example, 1 approving official at Fort
    McPherson had 2 separate managing accounts with a total of 14 cardholder
    accounts. Another approving official had seven separate managing accounts with
    a total of eight cardholder accounts under her purview. In addition, the approving
    officials had not requested and obtained waivers to the span of control policy.

    Approving officials with an unreasonable number of cardholders assigned to their
    account may not promptly review and certify monthly billing statements for
    cardholders as required. A ratio that is too large decreases the approving
    officials’ ability to effectively manage cardholders assigned to them, as evidenced
    by the number and types of misuses we identified. The total number of
    transactions, as well as the number of assigned cardholders, must be considered
    when determining an acceptable cardholder to approving official ratio.


Corrective Actions Taken by Fort Stewart Purchase Card
  Program Officials
    Fort Stewart purchase card program management officials initiated efforts to
    improve internal controls during the audit in response to recommendations made
    by the AAA in September 2005. These efforts included developing a robust
    program for cardholder training, establishing a plan to achieve 100 percent
    inspections of approving official accounts, and implementing a plan to reduce the
    approving official span of control to a manageable level. These efforts, if fully
    implemented, should strengthen program controls and significantly improve
    program oversight.

    Cardholder Training. Fort Stewart purchase card program management
    officials developed a robust program to ensure all cardholders and approving
    officials receive the required training in accordance with Army guidance. The
    draft Army Regulation on the Government Purchase Card Program, effective
    December 6, 2005, requires individuals to complete a mandatory Web-based
    Defense Acquisition University tutorial on the purchase card program and locally
    developed training prior to being delegated micro-purchase authority. The draft
    regulation also requires all cardholders and approving officials to receive
    refresher training annually, instead of biannually; this refresher training can be
    provided locally by the A/OPC or through the Defense Acquisition University
    tutorial. Fort Stewart’s newly developed training program complied with the
    regulation. The program included an 8-hour initial training class offered once a
                                         9
   month by the A/OPC. Individuals were required to complete the Defense
   Acquisition University tutorial prior to attending the class. The Director of
   Contracting delegates authority to the individuals once the training is completed.
   The program also included a 4-hour refresher training class conducted by the
   A/OPC; all cardholders and approving officials must complete the Defense
   Acquisition University tutorial prior to attending the refresher class. In addition,
   Fort Stewart purchase card program management officials recently developed an
   internal database to monitor all cardholders and approving officials, including
   tracking the completion of purchase card training.

   Approving Official Account Inspections. Fort Stewart purchase card program
   management officials established a plan to achieve 100 percent inspections of
   approving official accounts. Fort Stewart personnel reserved one day per week to
   perform account inspections. Fort Stewart’s newly developed internal database
   will also be used to track approving official account inspections, including the
   approving official name, the office, the account number, the inspection date, and
   whether the account required a follow-up review within 90 days to determine
   whether deficiencies were improved.

   Span of Control. Fort Stewart purchase card program management officials
   implemented a plan to reduce the approving official span of control to a
   manageable level. Specifically, program officials reduced the number of
   approving officials who had exceeded the span of control from 17 to 3 since
   October 2004.


Summary
   Purchase card managers did not effectively implement Army purchase card
   program guidance and did not adequately enforce existing controls throughout the
   program. As a result, purchase requirements were split, mandatory sources were
   not used, cardholders made unauthorized purchases, and the required supporting
   documentation was not properly retained. In addition, cardholder training was
   insufficient, required annual inspections of approving official accounts were not
   effective, and the span of control was excessive.

   Purchase card program policies and procedures need to be effectively
   implemented, program management must emphasize program oversight
   responsibility, and controls need to be enforced. We commend Fort Stewart
   purchase card program officials for their efforts to initiate corrective actions and
   address inadequate controls and weak oversight. Fort Stewart officials need to
   fully implement and enforce the newly established controls to strengthen the
   program. Unless purchase card program management officials strengthen internal
   controls and program oversight, the Army cannot ensure the continuous program
   improvement and risk mitigation necessary to prevent fraud, waste, or
   mismanagement. Therefore, managers at all levels must emphasize proper
   management of the program. The recommendations contained in this report, if
   fully implemented, will strengthen purchase card program controls.



                                        10
Recommendations, Management Comments, and
  Audit Response
    1. We recommend that the Director, U.S. Army Contracting Agency,
    Northern Region, require that the Director for the contracting activities at
    Fort Carson establish controls to:

          a. Ensure all cardholders and approving officials receive the required
    purchase card training.

    Management Comments. The Acting Director of the Army Contracting Agency
    concurred and stated a 100 percent review of the cardholder files was performed
    and documents were reverified to identify training that was accomplished and still
    required. The Acting Director stated effective April 3, 2006, weekly refresher
    training is being conducted for cardholders and approving officials. The training
    was designed to provide special emphasis in the areas the draft report identified as
    noncompliant with the Army Government Purchase Card Standing Operating
    Procedure (that is, split purchases, obtaining prior purchase approval, ensuring
    records are properly documented, and maintaining proper retention of cardholder
    and approving official documentation on the installation when an individual
    leaves).

    Audit Response. The comments are responsive, and no additional comments are
    required.

          b. Ensure the agency/organization program coordinator inspects all
    purchase card approving official accounts annually.

    Management Comments. The Acting Director concurred and stated that a
    “Tiger Team” was established in April 2006 to assist the agency/organization
    program coordinators in performing audits of approving official accounts. The
    Tiger Team was tasked with conducting the annual reviews of the approving
    official accounts. The Acting Director stated the goal of the team is to complete a
    100 percent inspection of the accounts within the next 6 to 9 months. The Acting
    Director stated the team will be responsible for auditing the approving official
    accounts annually. In addition, the Acting Director stated the Fort Carson
    Director of Contracting or a Branch Chief will audit a monthly listing of purchase
    card transactions to check for split purchases and other suspect purchases.

    Audit Response. Although the Acting Director concurred with the
    recommendation, we do not consider the comments responsive. Although the
    initiative of developing the Tiger Team to assist with the annual audits of the
    approving official accounts is commendable, the Army Government Purchase
    Card Standing Operating Procedure requires the Level 4 agency/organization
    program coordinator to have full responsibility of auditing approving official
    accounts annually. In addition, the current draft revision to the Army Standing
    Operating Procedure states that the agency/organization program coordinator’s
    responsibilities cannot be delegated. The responsibility for conducting annual
    approving official account audits should remain with the agency/organization
    program coordinator as stated in the Army Government Purchase Card Standing
                                        11
Operating Procedure. We request the Acting Director of the Army Contracting
Agency provide additional comments in response to the final report. Specifically,
the comments should address the action required to ensure the
agency/organization program coordinator inspects all purchase card approving
official accounts annually.

        c. Reduce the approving official span of control to a manageable
level, in accordance with purchase card guidelines.

Management Comments. The Acting Director concurred and stated as of
May 1, 2006, the purchase card accounts were reviewed. If an approving official
had oversight of more than seven cardholders, the cardholder accounts were
closed or reassigned to other approving officials to ensure compliance with the
draft Army purchase card regulation span of control guidelines.

Audit Response. The comments are responsive and no additional comments are
required.

2. We recommend that the Director, U.S. Army Contracting Agency,
Southern Region:

        a. Require the Director for the contracting activities at Fort
McPherson establish controls to ensure all cardholders and approving
officials receive the required purchase card training.

Management Comments. The Acting Director of the Army Contracting Agency
concurred and stated the U.S. Army Contracting Agency, Southern Region,
Level 3 agency/organization program coordinator will coordinate with the Level 4
Fort McPherson agency/organization program coordinator to assist with the
development of classroom training that provides all cardholders and approving
officials comprehensive guidance on the authorized use of the purchase card.

Audit Response. The comments are responsive and no additional comments are
required.

      b. Require the Director for the contracting activities at Fort
McPherson establish controls to ensure all purchase card approving official
accounts are inspected annually.

Management Comments. The Acting Director concurred and stated the Director
of the U.S. Army Contracting Agency, Southern Region, will provide guidance to
the Fort McPherson Director of Contracting to ensure all purchase card approving
official accounts are inspected annually.

Audit Response. The comments are responsive and no additional comments are
required.

      c. Require the Director for the contracting activities at Fort
McPherson establish controls to reduce the agency/organization program
coordinator and approving official span of control to a manageable level, in
accordance with purchase card guidelines.

                                   12
Management Comments. The Acting Director concurred and stated the
U.S. Army Contracting Agency, Southern Region, Level 3 agency/organization
program coordinator will provide guidance to the Fort McPherson Level 4
agency/organization program coordinator on methods to ensure the number of
open accounts is required to maintain the mission of the unit or activity. The
Acting Director stated the Fort McPherson Level 4 agency/organization program
coordinator will be encouraged to terminate accounts as appropriate for lack of
activity. In addition, the Acting Director stated if the span of control continued to
exceed Army standards, the Level 3 agency/organization program coordinator
would provide the Director of the U.S. Army Contracting Agency, Southern
Region, with options to improve span of control.

Audit Response. The comments are responsive and no additional comments are
required.

        d. Require Directors for the contracting activities at Fort McPherson
and Fort Stewart to establish written policies and procedures for retaining
purchase card transaction documentation for cardholders who transfer,
retire, deploy, etc.

Management Comments. The Acting Director concurred and stated the
U.S. Army Contracting Agency, Southern Region, Level 3 agency/organization
program coordinator will provide guidance to the Fort McPherson and Fort
Stewart Level 4 agency/organization program coordinators to update their
training and local standing operating procedures to include guidance on retaining
purchase card files, transfers, retirements, and deployments.

Audit Response. The comments are responsive and no additional comments are
required.

3. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller) initiate a preliminary investigation of the
prohibited purchases identified at Fort McPherson and Fort Stewart and the
potential for Antideficiency Act violations within 10 days to determine
whether a violation has occurred.

Management Comments. The Deputy Assistant Secretary of the Army for
Financial Operations concurred and stated the Army would initiate a preliminary
investigation of the potential Antideficiency Act violations once the DoD Office
of Inspector General issued the final report.

Audit Response. The comments are responsive and no additional comments are
required.




                                     13
Appendix A. Scope and Methodology
   We reviewed purchase card program controls at Fort Carson, Fort McPherson,
   and Fort Stewart. In addition, we analyzed data provided by the DoD Inspector
   General (IG) Data Mining Division to select cardholder accounts at each location
   for purchases made from October 1, 2004, through April 30, 2005. Specifically,
   we selected 43 Fort Carson cardholder accounts, 46 Fort McPherson cardholder
   accounts, and 18 Fort Stewart cardholder accounts based on analysis of:

          •   potential split transactions,

          •   purchases over the cardholder single purchase limit,

          •   questionable vendors, and

          •   weekend and holiday purchases.

   Purchase card program personnel could not locate cardholder files for 22 of the
   43 Fort Carson accounts, 3 of the 46 Fort McPherson accounts, and 2 of the
   18 Fort Stewart accounts. As a result, we reviewed 80 cardholder accounts,
   including 9,865 purchase transactions, valued at $22.4 million, made from
   October 1, 2004, through April 30, 2005. We reviewed purchase request
   documents, invoices, receiving reports, and other supporting documentation
   provided by Fort Carson, Fort McPherson, and Fort Stewart personnel. We also
   reviewed training documents for the 107 selected cardholder accounts, approving
   official account inspection documents, and listings of all cardholder and
   approving official accounts. We interviewed key personnel from all
   three locations.

   We performed this audit from July 2005 through April 2006 in accordance with
   generally accepted government auditing standards.

   Use of Computer-Processed Data. To achieve the audit objective, we relied on
   computer-processed data from U.S. Bank, which was provided to us by the
   Defense Manpower Data Center. We did not perform a formal reliability
   assessment of the computer-processed data. However, we were able to establish
   data reliability for the information by comparing purchase card transaction data
   with source documentation. We did not find material errors that would preclude
   the use of computer-processed data to meet the audit objective or that would
   change the conclusion in this report.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office (GAO) has identified several high-risk areas in DoD. This
   report provides coverage of the DoD Contract Management high-risk area.




                                        14
Appendix B. Prior Coverage
    During the last 5 years, GAO, DoD IG, and AAA have issued 15 reports
    discussing purchase card program controls within the Army specifically and DoD
    in general. Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.


GAO
    GAO Report No. GAO-04-430, “Contract Management: Agencies Can Achieve
    Significant Savings on Purchase Card Buys,” March 12, 2004

    GAO Report No. GAO-04-156, “Purchase Cards: Steps Taken to Improve DoD
    Program Management, but Actions Needed to Address Misuse,” December 2,
    2003

    GAO Report No. GAO-03-56, “Contract Management: Government Faces
    Challenges in Gathering Socioeconomic Data on Purchase Card Merchants,”
    December 13, 2002

    GAO Report No. GAO-02-732, “Purchase Cards: Control Weaknesses Leave
    Army Vulnerable to Fraud, Waste, and Abuse,” June 27, 2002


DoD IG
    DoD IG Report No. D-2004-104, “Purchase Card Use and Contracting Actions at
    the U.S. Army Corps of Engineers, Louisville District,” July 27, 2004

    DoD IG Report No. D-2003-109, “Summary Report on the Joint Review of
    Selected DoD Purchase Card Transactions,” June 27, 2003

    DoD IG Report No. D-2002-075, “Controls Over the DoD Purchase Card
    Program,” March 29, 2002

    DoD IG Report No. D-2002-029, “DoD Purchase Card Program Audit
    Coverage,” December 27, 2001


Army
    AAA Report No. A-2005-0308-ALA, “Army Government Purchase Card
    Program, Fort Stewart, Georgia,” September 21, 2005


                                      15
AAA Report No. A-2005-0199-ALA, “The Army’s Purchase Card Program,
Aviation Division, Fort Stewart/Hunter Army Airfield, Georgia,” June 13, 2005

AAA Report No. A-2003-0456-FFG, “Army Government Purchase Card,”
September 30, 2003

AAA Report No. A-2002-0535-IMU, “Controls for the International Merchant
Purchase Authorization Card Program Logistics Assistance Group-Europe,”
August 21, 2002

AAA Report No. A-2002-0492-AMW, “Government Purchase Cards Army
Working Capital Fund,” July 26, 2002

AAA Report No. A-2002-0491-AMW, “Government Purchase Cards Tobyhanna
Army Depot,” July 25, 2002

AAA Report No. A-2002-0361-AMW, “Government Purchase Cards Anniston
Army Depot,” May 13, 2002




                                  16
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
     Director, Purchase Card Program Management Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Director, U.S. Army Contracting Agency
      Director, U.S. Army Contracting Agency, Northern Region
      Director, U.S. Army Contracting Agency, Southern Region
Assistant Secretary of the Army (Financial Management and Comptroller)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        18
Assistant Secretary of the Army for Acquisition,
Logistics, and Technology Comments




                       19
20
21
Assistant Secretary of the Army for Financial
Management and Comptroller Comments




                       22
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management Directorate prepared this report.
Personnel of the Department of Defense Office of Inspector General who
contributed to the report are listed below.

Richard B. Jolliffe
Deborah L. Carros
Kimberly H. Gianfagna
Gloria J. Young
Chad J. Evans
Jennifer L. Seighman
Kevin A. Palmer
Judy M. Chun
Jillisa H. Milner
